May 1, 2007

MICHAEL J. DALEY
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT: Audit Report – Address Management System Information – Pacific Area
         (Report Number DR-AR-07-005)

This report presents the results of our self-initiated audit of Address Management
System (AMS) information in the Pacific Area (Project Number 06XG047DR000). This
is one in a series of reports on AMS information. We will include the results of this audit
in a nationwide capping report assessing the management of AMS information. Our
objective was to assess the U.S. Postal Service’s management of delivery AMS quality
review results to ensure address information is correct and complete to effectively
process and deliver the mail in the Pacific Area.

Postal Service officials in the Pacific Area’s Sierra-Coastal, Sacramento, San Diego,
and Bay-Valley Districts effectively managed delivery AMS quality review results for
approximately 2 percent (323 of 15,378) of their routes according to Postal Service
guidelines. However, opportunities exist for area officials to implement best
management practices used by the New York Metro Area’s New York District to
improve the quality of AMS data to process and deliver the mail. Approximately
101,022 AMS data errors may exist in these four Pacific Area districts on the 15,055
routes for which street reviews were not conducted. If Pacific Area officials
implemented a program similar to the New York District’s, they could reduce errors by
31.84 percent, saving the Postal Service $7,881,288 over the next 10 years. We will
report $7,881,288 of funds put to better use in our Semiannual Report to Congress.

For fiscal years 2005 and 2006, Pacific Area districts improved their Delivery Point
Sequence (DPS) mail volume percentages. According to the Transformation Plan, the
Postal Service’s goal is to sort 95 percent of letters by DPS by 2010. A decrease in
AMS data errors will help Pacific Area officials achieve the DPS goal of 95 percent and
will reduce operating costs.

We recommended the Vice President, Pacific Area Operations, implement an AMS
quality review program similar to the New York District’s that includes training delivery
supervisors or appropriate designees in AMS quality street reviews. We also
recommended establishing an annual district schedule of AMS quality street reviews
and directing delivery supervisors or appropriate designees to review delivery routes
annually. Finally, we recommended the AMS office establish a tracking system for
street reviews.
Management agreed in principle with our finding and recommendations and has
initiatives completed and planned addressing the issues in this report. However,
management stated that no evidence exists that reviewing significantly more routes
annually will result in the savings of the proposed funds put to better use. We have
included management’s comments and our evaluation of these comments in the report.

The U.S. Postal Service Office of Inspector General (OIG) considers all the
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Rita Oliver,
Director, Delivery, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Kathleen Ainsworth
    Charles E. Bravo
    Paul J. Fagan
    Steve Dearing
    David B. Stowe
    Tim P. Padden
    Valerie M. Davenport
    Dale B. Robins
    Judith A. Mummy
    Dorothy L. Wilson
    Deborah A. Kendall
Address Management System Information                                                                 DR-AR-07-005
 Pacific Area


                                                INTRODUCTION
    Background             Address management is the foundation for how the Postal
                           Service moves mail. Over the years, the Postal Service has been
                           striving to obtain the highest quality address information possible
                           for internal use and for its customers. In March 1993, the Postal
                           Service implemented Delivery Point Sequence (DPS).1 DPS is
                           the process of arranging barcoded mail according to the carrier’s
                           line of travel (LOT) to eliminate manual mail sorting, improve
                           efficiency, and reduce costs.

                           In 1994, the Postal Service established the Address Management
                           System (AMS) to capture, correct, and complete address
                           information to enhance the efficiency of mail processing and
                           delivery through automation. The AMS captures address
                           information in sort programs used to process mail in DPS. A
                           developer creates sort programs using the Sort Program System,
                           which is a subsystem of the National Directory Support System
                           (NDSS). DPS sort programs are transferred to a Mail Processing
                           Barcode Sorter or a Delivery Barcode Sorter2 for sorting mail into
                           DPS.

                           Mail that cannot be processed on automated equipment requires
                           manual processing, which is less efficient and more costly to the
                           Postal Service. As illustrated in Table 1, during fiscal year
                           (FY) 2005, the Postal Service processed 94 billion pieces of letter
                           mail, of which 72 billion pieces (76.8 percent) were processed on
                           automated equipment and the remaining 22 billion pieces
                           (23.2 percent) manually. During FY 2006, the Postal Service
                           processed 93.3 billion pieces of letter mail; 74.4 billion pieces
                           (79.7 percent) were processed on automated equipment and the
                           remaining 18.9 billion pieces (20.3 percent) manually.

                                         Table 1. Postal Service Letter Mail Processed in Pieces
                                                           FYs 2005 and 2006
                                                                                                        Cased
                             Fiscal    DPS Letters     Cased Letters    Total Letters       DPS         Letter
                              Year      (Pieces)         (Pieces)         (Pieces)       Percentage   Percentage
                             2005     72,270,819,511   21,846,660,416   94,117,479,927      76.8         23.2
                             2006     74,404,492,341   18,929,268,976   93,333,761,317      79.7         20.3
                             Source: Postal Service Web-enabled Enterprise Information System (WebEIS)




1
  DPS resulted from an agreement in 1992 with the National Association of Letter Carriers that changed the
automation environment.
2
  DPS mail is also sorted on Carrier Sequence Barcode Sorters, a type of mail processing equipment used by smaller
Postal Service facilities.




                                                         1
Address Management System Information                                                             DR-AR-07-005
 Pacific Area



                           In 2003, the Postal Service outlined a strategy to enhance
                           address quality in its Intelligent Mail Corporate Plan. The
                           strategy includes improving the address database, filling change
                           of address orders, and using Address Change Service. To
                           improve the address database, the Postal Service established a
                           delivery AMS quality review program to evaluate the quality of
                           AMS data and meet the goal of 100 percent accurate AMS data
                           nationwide.

                           As part of the quality review program, National Customer Support
                           Center (NCSC) teams annually conduct street reviews of
                           40 routes at each Postal Service district nationwide. The NCSC
                           team selects 40 city or rural delivery routes, based on Postal
                           Service guidelines. For every route the team selects within a ZIP
                           Code, they also select two alternate routes.3

                           The street reviews:

                           •   Identify all possible delivery addresses included in Address
                               Information System products and the NDSS files.

                           •   Validate the number of possible delivery addresses assigned
                               to each carrier route.

                           •   Validate the correct LOT or delivery sequence for each carrier
                               route.

                           •   Assign ZIP+4® Codes to maximize compatibility with
                               automated equipment.

                           •   Verify the standardization of addresses according to
                               Publication 28, Postal Addressing Standards, dated July
                               2006.

                           •   Review AMS database products to meet the needs and
                               expectations of Postal Service customers.




3
 The Delivery/AMS Quality Street Review Guidelines, FY 2005 Revision 1, states that NCSC will review 40 routes
annually.




                                                        2
Address Management System Information                                                               DR-AR-07-005
 Pacific Area



                           When a district scores below 98 percent on the street review, the
                           NCSC team will review it every 6 months, and districts that score
                           from 98 to 100 percent will receive an annual review. Districts
                           scoring 99 percent or higher may receive abbreviated route
                           reviews.

                           In addition to the NCSC street reviews, district AMS officials
                           conduct street reviews of routes to maintain the accuracy of AMS
                           data. Carriers also identify AMS data changes based on their
                           street deliveries. The carriers note address changes in their AMS
                           edit books and submit the information to district AMS officials
                           using their Web Electronic Edit Sheets for review and correction
                           in the AMS database.

                           As the Postal Service continues to process mail on automated
                           equipment, the quality of address information takes on new
                           importance. Use of correct and complete address information
                           can reduce costs to the Postal Service.

    Objective,             Our objective was to assess the Postal Service’s management of
    Scope, and             the delivery AMS quality review results to ensure that address
    Methodology            information is correct and complete to effectively process and
                           deliver mail in the Pacific Area. We obtained data on FYs 2005
                           and 2006 delivery AMS quality reviews from the NCSC to analyze
                           the routes reviewed, AMS data errors identified, and performance
                           scores. We selected the Pacific Area’s Sierra-Coastal,4
                           Sacramento, San Diego, and Bay-Valley5 Districts and the New
                           York Metro Area’s New York District for review, based on the
                           NCSC performance scores shown by delivery AMS quality
                           reviews.6

                           We obtained and reviewed the results of prior AMS reviews for
                           the New York District, which showed street review performance
                           scores consistently above 99 percent. As a best management
                           practice, we evaluated the feasibility and applicability of using the
                           New York District’s AMS data maintenance program in other



4
  In September 2006, the Van Nuys District was renamed the Sierra-Coastal District.
5
  Our baseline data was FY 2005. However, we reviewed data for districts that passed in FY 2005, but did not in FY
2006. Bay-Valley was the only district that met this criterion. (See Appendix A)
6
  We selected the Sierra-Coastal, Sacramento, San Diego, and Bay-Valley Districts based on their historically low
performance scores, and we selected the New York District based on its historically high performance scores and
improvements to the AMS process.




                                                         3
Address Management System Information                                                                     DR-AR-07-005
 Pacific Area


                             Postal Service districts. Our review of performance scores7
                             showed that the Sierra-Costal, Sacramento, and San Diego
                             Districts were consistently below 98 percent in FY 2005. In
                             addition, the Bay-Valley District’s FY 2006 scores were below 98
                             percent. (See Appendix A.) We evaluated the districts’ AMS
                             data maintenance process to determine whether they could
                             improve their programs. We also reviewed the districts’ FYs
                             2005 and 2006 DPS information to compare their DPS volumes
                             to the Postal Service goal.8

                             We conducted this audit from August 2006 through May 2007 in
                             accordance with generally accepted government auditing
                             standards and included such tests of internal controls as we
                             considered necessary under the circumstances. We discussed
                             our observations and conclusions with management officials and
                             included their comments where appropriate. We relied on
                             computer-processed information from AMS. We did not directly
                             audit the system, but performed a limited data integrity review to
                             support our data reliance.

    Prior Audit              The OIG issued five reports directly related to our objectives. We
    Coverage                 have included a complete listing of the reports in Appendix E.




7
  To compute a district’s AMS performance score, each error found during a route review is subtracted from the total
number of possible deliveries for the district. This adjusted possible delivery figure is divided by the district’s total
possible deliveries to arrive at the AMS performance score.
8
  We are planning to conduct a future review that will incorporate DPS percentages to identify opportunities to
generate revenue, reduce costs, and improve customer service.




                                                            4
Address Management System Information                                                                DR-AR-07-005
 Pacific Area


                                            AUDIT RESULTS
    Address                     Postal Service officials in the Pacific Area’s Sierra-Coastal,
    Management                  Sacramento, San Diego, and Bay-Valley Districts effectively
    System Information          managed delivery AMS quality review results for approximately
    – Pacific Area              2 percent (323 of 15,378) of their routes.9 However,
                                opportunities exist for area officials to implement best
                                management practices similar to those used by the New York
                                Metro Area’s New York District to improve the quality of AMS
                                data to process and deliver the mail.

                                In FY 2005, the Sierra-Coastal, Sacramento, San Diego, and
                                Bay-Valley Districts had 15,378 total routes, as shown in
                                Chart 1. The NCSC team reviewed 1 percent (140 of 15,378) of
                                these routes according to Postal Service guidelines. The team
                                identified 883 AMS errors,10 approximately six errors for each
                                route. The districts did not achieve the 98 percent AMS target
                                goal. (See Appendix A.) NCSC teams did not review the
                                remaining 99 percent of the routes (15,238 of 15,378). During
                                this same period, AMS officials in the Sacramento and Bay-
                                Valley Districts reviewed an additional 1 percent (183 of 15,238)
                                of the routes. NCSC and local AMS officials did not review the
                                remaining 98 percent (15,055 of 15,378) of the routes. (See
                                Appendix B.)




9
  The 2 percent represents the 140 routes reviewed by the NCSC and 183 routes reviewed by district officials. For
the four districts, 323 out of a total 15,378 routes were reviewed.
10
   District officials stated they had corrected all identified errors.




                                                         5
Address Management System Information                                                                   DR-AR-07-005
 Pacific Area




                                      Chart 1. Sierra-Coastal, Sacramento, San Diego, and Bay-Valley Districts
                                                       Number and Percentage of Routes Reviewed

                                                                               Routes Not
                                                                               Reviewed,
                                                                               15,055, 98%




                                                                                        Routes
                                                Routes                                Reviewed By
                                             Reviewed by                               NCSC, 140
                                                District
                                             Officials, 183


                                      Source: Postal Service NCSC and Pacific Area Officials


                                 Based on FYs 2005 and 2006 NCSC team reviews and the
                                 error rate for each route, approximately 101,02211 AMS data
                                 errors may exist in these four districts on the 15,055 routes for
                                 which street reviews were not conducted.

                                 Currently, the Sierra-Coastal, Sacramento, San Diego, and
                                 Bay-Valley Districts’ AMS quality review programs are
                                 administered by local AMS officials. As illustrated in Table 2, at
                                 the time of our review, NCSC and local AMS officials performed
                                 quality street reviews for 323 routes. However, AMS district
                                 officials did not use available district resources, such as delivery
                                 supervisors or appropriate designees, to conduct additional
                                 street reviews for the remaining 15,055 routes.




11
   Our projection of the possible number of errors in routes not reviewed is based on the formula NCSC uses in its
street reviews. The error projection for each district is determined by using the number of errors identified in NCSC
street reviews, calculating an error rate per route, and applying the rate to the number of routes not reviewed. The
101,022 projected errors was calculated by adding the following:
- Sierra-Coastal - 24,672 (238 errors ÷ 40 routes reviewed = 6 × 4,112 routes not reviewed).
- Sacramento - 20,064 (223 errors ÷ 40 routes reviewed = 6 × 3,344 routes not reviewed).
- San Diego - 24,210 (252 errors ÷ 40 routes reviewed = 6 × 4,035 routes not reviewed).
- Bay-Valley - 32,079 (170 errors ÷ 20 routes reviewed = 9 × 3,564 routes not reviewed).




                                                              6
Address Management System Information                                                                  DR-AR-07-005
 Pacific Area

                                     Table 2. Route Reviews Conducted in the Sierra-Coastal, Sacramento,
                                                      San Diego, and Bay-Valley Districts


                                                                  NCSC          District                      Total
                                                                  Route          Route          Total        Routes
                                     Selected         Total      Reviews        Reviews        Routes          Not
                                     Districts       Routes     Conducted      Conducted      Reviewed      Reviewed

                                  Sierra-Costal        4,152             40               0           40         4,112
                                  Sacramento           3,547             40            163           203         3,344
                                  San Diego            4,075             40               0           40         4,035
                                  Bay-Valley           3,604             20              20           40         3,564

                                  Total               15,378            140            183           323        15,055

                                               Source: Postal Service NCSC and Pacific Area Officials

                                 AMS district officials stated they did not review the remaining
                                 routes because AMS staff resources were limited. Sierra-
                                 Coastal AMS officials informed OIG they performed desk
                                 reviews instead of street reviews for 660 routes where carriers
                                 did not electronically submit their edit book updates to district
                                 officials.12 Pacific Area officials also began implementing an
                                 area initiative, the Monthly Apportioned Review System, in
                                 October 2006 for each district. Each district will conduct street
                                 reviews based on the number of routes in their district.
                                 Approximately 1,200 street reviews will be conducted annually.

                                 The AMS review module in the associate supervisors’ training
                                 course given to the districts’ delivery supervisors does not
                                 include specific information on AMS quality street reviews. The
                                 AMS review module provides information only on edit book
                                 updates and how to enter the changes into the automated
                                 system for submission to district officials.

                                 Further, AMS data errors may exist in the Sierra-Coastal District
                                 because delivery carriers did not submit edit book updates to
                                 AMS officials for correction in a timely manner. When brought
                                 to the attention of Sierra-Coastal District officials, immediate
                                 corrective action was taken, which included establishing plans
                                 to train all delivery carriers on the use of edit books in January
                                 2007 and make them responsible for updating edit books and
                                 submitting changes in a timely manner.


12
   Desk reviews are discussions with carriers when the carrier has not submitted his or her edit book or no physical
street reviews of the routes have been conducted.




                                                          7
Address Management System Information                                                                      DR-AR-07-005
 Pacific Area



                                 The Postal Service established the AMS to capture, correct,
                                 and complete address information to enhance the efficiency of
                                 mail processing and delivery through automation. AMS address
                                 information is captured in sort programs used to process mail in
                                 DPS. The Postal Service created DPS to eliminate manual mail
                                 sorting, improve efficiency, and reduce costs.

                                 As shown in Table 3, the Pacific Area district locations improved
                                 their DPS mail volume percentages from FY 2005 to FY 2006.
                                 According to the Transformation Plan,13 the Postal Service’s
                                 goal is to sort 95 percent of letters by DPS by 2010. A
                                 decrease in AMS data errors will help Pacific Area officials in
                                 achieving the DPS goal and will reduce operating costs.


                                               Table 3. Pacific Area Districts’ DPS Percentages

                                     Pacific Area Districts             FY 2005                  FY 2006

                                   Bay-Valley                            78.84                     80.44
                                   Honolulu                              73.01                     77.14
                                   Los Angeles                           65.29                     72.28
                                   Sacramento                            74.13                     79.33
                                   San Diego                             79.50                     82.52
                                   San Francisco                         75.19                     80.14
                                   Santa Ana                             75.95                     79.45
                                   Sierra- Costal                        75.72                     79.72

                                   Pacific Area Average                  74.70                     78.88
                                   National Average                      76.79                     79.72

                                                                    Source: WebEIS

                                 If the Sierra-Coastal, Sacramento, San Diego, and Bay-Valley
                                 Districts implemented a program similar to the New York
                                 District, they could reduce errors by 31.84 percent,14 saving the
                                 Postal Service $7,881,288 over the next 10 years. We will
                                 report $7,881,288 of funds put to better use in our Semiannual
                                 Report to Congress. (See Appendix B.)

 New York District               The New York District has a total of 2,202 routes. In FY 2005,
                                 the NCSC team reviewed 40 (2 percent) of these routes
                                 according to Postal Service guidelines. The team identified
13
   U.S. Postal Service Strategic Transformation Plan, 2006 – 2010, dated September 2005.
14
  The error reduction rate factor for the New York Metro Area is 71.05 percent, and the error reduction rate factor for
the control group is 29.74 percent. The factor for the New York Metro Area is divided by the control group factor
(1.7105 ÷ 1.2974) to arrive at 31.84 percent. The Pacific Area districts are expected to reduce their error rates by
31.84 percent by implementing a program similar to the New York District’s.




                                                           8
Address Management System Information                                                               DR-AR-07-005
 Pacific Area



                                195 AMS errors (approximately five errors on each route), and
                                the district received a 99.21 percent AMS performance score
                                from the street review. The NCSC team did not review the
                                remaining 98 percent of the routes (2,162 of 2,202).

                                In 1998, the New York District began an extensive AMS quality
                                review program, administered by local AMS officials, which
                                requires delivery units to complete AMS street reviews using
                                existing staff. As part of the program, New York District officials
                                added an AMS review module to the training course given to
                                New York delivery supervisors. The New York AMS office also
                                established AMS review schedules for all delivery units and an
                                accountability system to monitor the completion of AMS street
                                reviews conducted by delivery supervisors or their designees.
                                These actions allowed the New York District to use existing staff
                                to significantly increase its review coverage.

                                In FY 2005, New York District officials set a goal of reviewing all
                                routes annually, including routes reviewed by the district and
                                the NCSC. The existing staff reviewed routes and implemented
                                corrective actions for the AMS errors identified. All districts in
                                the New York Metro Area use delivery unit staff to conduct AMS
                                reviews, and the program has been successful. Since its
                                inception, all districts have significantly improved their AMS
                                performance scores. The average performance score for the
                                New York District is 99.03 percent.15

                                The Deputy Postmaster General and Chief Operating Officer
                                issued a memorandum dated August 23, 2006, on AMS
                                national street reviews. The memorandum stated that for
                                FY 2007, trained field personnel would conduct all delivery AMS
                                street reviews. The AMS national street review team will not
                                conduct on-site street reviews in FY 2007 and will not have
                                funding to field personnel with travel costs. The FY 2007
                                delivery AMS street review schedule will continue to be
                                coordinated through area and headquarters address
                                management officials. The NCSC will continue to provide street
                                review materials.




15
  The 99.03 percent is 1.03 percent above the 98 percent passing score. Districts scoring between 98 and
100 percent receive an NCSC street review once a year. Districts scoring 99 percent or higher may receive
abbreviated route reviews.




                                                        9
Address Management System Information                                                             DR-AR-07-005
 Pacific Area




 Recommendation                    We recommend the Vice President, Pacific Area Operations,
                                   implement an Address Management System quality review
                                   program similar to the New York District’s that:

                                      1. Provides training in Address Management System quality
                                         street reviews to delivery supervisors or appropriate
                                         designees.

                                      2. Establishes a district schedule of annual Address
                                         Management System quality street reviews.

                                      3. Directs delivery supervisors or appropriate designees to
                                         review delivery routes annually.

                                      4. Establishes a tracking system to monitor completed street
                                         reviews.

 Management’s                      In their written response, management did not agree or
 Comments                          disagree with the recommendations. Additionally, management
                                   stated that they did not disagree with the methodology or
                                   factors used to calculate the $7,881,288 funds put to better use.
                                   Management stated that the area's route and delivery types
                                   make AMS information complex and training employees can
                                   take more than a year. Additionally, management stated that
                                   reviewing each of the remaining routes would result in an
                                   estimated cost of more than $21 million over a 10-year period.

                                   Management further stated that there was no evidence that
                                   reviewing significantly more routes annually will result in the
                                   claimed savings. In subsequent discussions with
                                   management16, they did agree in principle to the
                                   recommendations and as noted in their comments, had
                                   implemented or planned alternative actions. Management's
                                   comments, in their entirety, are included in Appendix D.

 Evaluation of                     Management’s comments are responsive to recommendations
 Management’s                      1, 2, 3 and 4. Management’s alternative actions taken and
 Comments                          planned should correct the issues identified in the finding. We
                                   believe the model used to calculate savings (Appendix C)
                                   provides a reasonable estimate of costs that could be saved by
                                   implementing an AMS error reduction program. The model
                                   applied the principles used by the New York District’s error
16
     Discussions were held with the designated Pacific Area point of contact on April 20, 2007.




                                                            10
Address Management System Information                                            DR-AR-07-005
 Pacific Area


                          reduction program. Under this program, AMS street reviews
                          were absorbed into the workload of existing staff, without any
                          additional cost. Since management agreed to implement
                          alternative actions to address the issues identified in this report,
                          we do not plan to pursue the unresolved monetary impact
                          issues through the formal audit resolution process.




                                             11
          Address Management System Information                                                  DR-AR-07-005
           Pacific Area



                                                   APPENDIX A

                       NCSC REVIEW RESULTS FOR THE PACIFIC AREA

                                                                Historical   Achieved                           Achieved
       Pacific Area    FY 2005   FY 2005     Achieved           Average        98%                 FY 2006        98%
         District       Score     Score     98% Score          Score as of    Score     FY 2006     Score        Score
No.     Locations         %       Date       FY 2005            FY 2005       History   Score%      Date        FY 2006

1       San Diego       97.77     8/16/05         No             97.44           No      97.67      8/29/06       No
2     Sierra-Coastal    97.40     9/20/05         No             96.54           No      97.40      8/8/06        No
3      Sacramento       97.44     4/12/05         No             96.70           No      97.28      3/21/06       No
4       Bay-Valley      98.38     8/9/05          Yes            96.28           No      95.10      8/1/06        No
5        Honolulu       98.22     5/16/05         Yes            97.59           No      98.18      5/2/06        Yes
6      Los Angeles      98.25     6/7/05          Yes            96.90           No      98.86      8/10/06       Yes
7     San Francisco     98.02     10/4/05         Yes            96.47           No      98.02      9/26/06       Yes
8       Santa Ana       98.64     6/21/05         Yes            97.41           No      98.64      9/18/06       Yes

                                         Source: Postal Service NCSC officials




                                                          12
Address Management System Information                                                                                                    DR-AR-07-005
 Pacific Area


                                                                                APPENDIX B

     FYS 2005 AND 2006 ROUTE REVIEWS FOR THE SIERRA-COASTAL,
        SACRAMENTO, SAN DIEGO, AND BAY-VALLEY DISTRICTS17


                                                                     5000
                         Total Number of Routes in District

                                                                                         99%                             99%
                                                                                                                                          99%
                                                                     4000                                 94%

                                                                     3000


                                                                     2000


                                                                     1000        1%                6%               1%             1%

                                                                            0
                                                                                Sierra-
                                                                                                Sacramento      San Diego      Bay-Valley
                                                                                Coastal

              Total Routes Reviewed                                                40               203             40              40

              Total Routes Not Reviewed                                          4,112             3,344          4,035           3,564




                                                              Source: Postal Service NCSC and Pacific Area Officials




17
     A total of 323 routes were reviewed by NCSC and district AMS officials, and 15,055 routes were not reviewed.




                                                                                           13
Address Management System Information                                        DR-AR-07-005
 Pacific Area


                                        APPENDIX C

              CALCULATION OF FUNDS PUT TO BETTER USE

The OIG identified $7,881,288 in funds put to better use over the next 10 years for the
Pacific Area’s Sierra-Coastal, Sacramento, San Diego, and Bay-Valley Districts.

                                                  Fiscal   Funds Put to
                          Pacific Area             Year     Better Use

                  Sierra-Coastal                  2005       $1,579,320
                  Sacramento                      2005        1,141,471
                  San Diego                       2005        1,975,322
                  Bay-Valley                      2006        3,185,175

                  Total for 10-Year Period                   $7,881,288

The following assumptions were used in the calculation of the $7,881,288:

1. We used the New York Metro Area as our standard for predicting the cost savings
   possible for the Sierra-Coastal, Sacramento, San Diego, and Bay-Valley Districts.

2. We assumed that all Postal Service areas other than the New York Metro Area had
   not implemented an error reduction programs over the time period of the AMS street
   reviews. These areas were our control group for purposes of estimating the net
   benefit of the New York Metro Area’s program.

3. The AMS national street review model is used to calculate cost savings. Therefore,
   we assumed that it realistically represented costs that the Postal Service could save
   if it implemented a program to reduce the incidence of AMS errors. However, in our
   opinion, any costs saved would have to be related to a reduction in overtime or
   casual hours; therefore, labor rates used should be hourly overtime rates (which was
   not the case).

4. We used the AMS national street review model unchanged, with one exception: the
   model had FY 1999 labor rates imbedded. We updated these rates to reflect FY
   2007 rates by escalating by 2.4 percent per year to arrive at a projection.

5. We assumed the cost of implementing an error reduction program would be
   negligible.

6. We assumed the average cost per error for the Sierra-Costal, Sacramento, San
   Diego, and Bay-Valley Districts would remain constant before and after program
   implementation.




                                             14
Address Management System Information                                          DR-AR-07-005
 Pacific Area


7. If the Sierra-Coastal, Sacramento, San Diego, and Bay-Valley Districts began
   implementing a program immediately, FY 2007 would be devoted to set-up and
   training. We assumed that cost savings would not begin until FY 2008. Our
   calculation of savings (funds put to better use) is a discounted cash flow analysis
   over a 10-year period. The amount we will report in our Semiannual Report to
   Congress is the present value of the estimated savings over the 10-year period.

8. AMS errors can never be reduced to zero. We assumed the practical lower limit to
   be a 1 percent error rate. However, this constraint did not affect the calculation for
   the Sierra-Coastal, Sacramento, San Diego, and Bay-Valley Districts in this
   instance.

9. We assumed that error rates on rural routes would respond to an error reduction
   program in the same manner as city routes.

10. In our analysis of the New York Metro Area, we excluded the Caribbean District due
    to uncertainties regarding implementation of an error reduction program.

11. Not all categories of AMS errors have associated costs. We assumed that costly
    and noncostly errors would respond to an error reduction program in the same
    manner. That is, if the overall reduction rate for all AMS errors was 20 percent, the
    reduction rate for costly errors was also 20 percent.




                                            15
Address Management System Information                DR-AR-07-005
 Pacific Area


                 APPENDIX D. MANAGEMENT’S COMMENTS




                                        16
Address Management System Information                                   DR-AR-07-005
 Pacific Area


                                        APPENDIX E

                              PRIOR AUDIT COVERAGE

                                                                        Funds Put to
                                                                         Better Use
                                                                        Over the Next
            Audit                  Report Number       Issued Date        10 Years
Address Management                 DR-AR-07-004        May 1, 2007          $455,197
System Information – Capital
Metro Area
Address Management                 DR-AR-07-002      March 30, 2007         $862,134
System Information –
Southeast Area
Address Management                 DR-AR-07-001      March 15, 2007       $4,590,875
System Information –
Northeast Area
Address Management                 DR-AR-06-008    September 30, 2006     $2,078,506
System Information – Great
Lakes Area
Address Management                 DR-AR-06-001      January 25, 2006       $988,945
Systems – Southwest Area –
Rio Grande District




                                            17
